                                CLOSEOUT FOR M-92070030


 ,-... ..   On July 14, 1992, OIG received allegations of misconduct in science from an attornev.




original idea and work from her project proposal for.her Ph.D. qualifying exam as his NSF
funded proposal without her permission; 2) made false statements to,her concerning her role in
his funded proposal; 3) sexually harassed her; 4) retaliated against her because she resisted his
advances and complained about his sexual harassment; 5 ) included improper and misleading
information as a part of his NSF funded proposal; and 6) misused NSF funds. The subject's
NSF award                                                  partially supported the complainant's
research.

         OIG was informed by the complainant's attorney that the complainant had already
brought one of her allegations to the institution's attention. This was the allegation that the
subject had made false statements to her concerning her future support under his NSF award as
a graduate student and later as a post-doctoral fellow. The complainant claimed that both were
promised, but that the subject refused to include her on his NSF proposal budget as a
post-doctoral fellow.

        We proceeded with our inquiry into the allegations, in particular into whether there was
any evidence that the alleged sexual harassment and retaliation were associated with scientific
activities in such a way that they might be misconduct in science. In order to do so, we needed
additional information. We requested copies of the complainant's Ph.D. thesis and the project
proposal she presented with her Ph.D. qualifying exam. In addition, we requested copies of any
evidence that related to the false statements in the subject's NSF proposal and any other
documents (including drafts) that pertained to the remaining allegations. OIG received no
response.

       When OIG later contacted the complainant's attorney requesting the infonnation
necessary to evaluate the complainant's allegations as well as a status report on the grievance
filed with the Department of Fklucation, we were infonned that the attorney no longer
represented the complainant. Further, the attorney indicated that she had not cornnli~nicatedwith
the complainant for over a year.



                                             Page 1 of 2
                            CLOSEOUT FOR M-92070030

        OIG wrote to the complainant requesting information to assist us with our evaluation of
her allegations. OIG received no response.

       Over a two-year period, neither the complainant nor the complainant's attorney provided
OIG with any information that would permit a thorough evaluation of the allegations. Without
her information, resolution of this matter would require a broad and undirected search that is
beyond the resources of OIG.

       This case was closed for lack of information that showed the allegations had substance.

cc:    Senior Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                         Page 2 of 2
